U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Matthew T. Albence v. Maria Angelica Guzman Chavez, No. 19-897
Dear Mr. Harris:
The government’s petition for a writ of certiorari in the above-captioned case was filed on
January 17, 2020. Respondent’s brief in opposition was filed on April 22, 2020. The petition is
due to be distributed on May 12, 2020. We respectfully request, under this Court’s Order of March
19, 2020, that the distribution of the petition be delayed until May 19, 2020.
This extension is necessary because the government requires additional time to file a reply
due to difficulties relating to COVID-19. Counsel for respondents does not oppose this motion.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0897
ALBENCE, MATTHEW T., ACTING DIR. OF US
IMMIGRATION & CUSTOMS ENFORCEMENT, ET
AL.
MARIA ANGELICA GUZMAN CHAVEZ, ET AL.

PAUL WHITFIELD HUGHES, III
MCDERMOTT, WILL & EMERY, LLP
500 N. CAPITOL STREET, NW
WASHINGTON , DC 20001
202-756-8981
PHUGHES@MWE.COM
SIMON YEHUDA SANDOVAL-MOSHENBERG
LEGAL AID JUSTICE CENTER
6066 LEESBURG PIKE
SUITE 520
FALLS CHURCH, VA 22041
703-720-5605
SIMON@JUSTICE4ALL.ORG

